VERIFICATION/PROOF OF SERVICE
I, Adelso Bames, declare under Penalty of Perjury that the foregoing of this Petition for
Writ of Certiorari is true and correct.
I certify that on July ^ , 2020,1 mailed a copy of this Petition for Writ of Certiorari and
all attachments, with U.S. postage pre-paid to:
Mike Hunter, Attorney General
State of Oklahoma
Office of the Attorney General
313 NE 21st Street
Oklahoma City, OK 73105

Adelso Bames
DOC#641200
Pro se Litigant
129 Conner Road
Hominy, Oklahoma 74035

29

